  ENHANCING THE FEDERAL RAILROAD
ADMINISTRATION’S OVERSIGHT OF TRACK
        SAFETY INSPECTIONS
        Federal Railroad Administration

         Report Number: CR-2009-038
        Date Issued: February 24, 2009
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Enhancing the Federal Railroad                                             Date:    February 24, 2009
           Administration’s Oversight of Track Safety
           Inspections
           Report No. CR-2009-038
                                                                                           Reply to
  From:    David Tornquist                                                                 Attn. of:   JA-50
           Assistant Inspector General
             for Rail and Maritime Program Audits and
             Economic Analysis

    To:    Acting Deputy Federal Railroad Administrator

           This report presents the results of our audit of the Federal Railroad Administration’s
           (FRA) oversight of track-related safety issues. The objective of this audit was to
           evaluate FRA’s oversight of track safety on the Nation’s freight rail lines. From
           1998 through 2007, track defects were the second leading cause of train accidents,
           comprising 32 percent of the train accidents reported to FRA by the railroads.

           We contacted officials from FRA, four Class I 1 railroads, one non-Class I railroad,
           the American Short Line and Regional Railroad Association, and the Brotherhood of
           Maintenance-of-Way Employees 2 regarding Federal track safety regulations, freight
           railroad inspection policies and procedures, and track safety issues. For the four
           Class I railroads visited, we analyzed data from a random sample of track inspection
           reports (conducted by the railroads’ track inspectors from July through
           December 2007) to assess the frequency and type of inspection, the results of the
           inspection, and remedial actions taken. Exhibit A contains details on our audit scope
           and methodology. Exhibit B lists the activities we visited or contacted. We
           conducted this performance audit in accordance with generally accepted

           1
               According to the Association of American Railroads’ July 2008 statistics report, Class I freight railroad companies had
               minimum carrier operating revenues of $346.8 million in 2006. Seven freight railroads qualified as Class I—Burlington
               Northern Santa Fe Railway Company, Canadian National Railway, Canadian Pacific Railway, CSX Transportation,
               Kansas City Southern Railway Company, Norfolk Southern Corporation, and Union Pacific Railroad Company.
           2
               The Brotherhood of Maintenance-of-Way Employees is a division of the Rail Conference of the International
               Brotherhood of Teamsters, which represents and protects the rights of rail workers who build and maintain the track and
               structures on railroads throughout the United States.
                                                                                                                 2


Government Auditing Standards prescribed by the Comptroller General of the
United States.

BACKGROUND
FRA is faced with the challenge of how best to enforce its rail safety regulations for
about 567 railroads that haul various types of freight and 118 rail companies that
transport passengers within the national railroad transportation system. From 1998
through 2007, the second leading cause of train accidents was track defects or
problems related to rails and their roadbeds, according to reports the railroads
submitted to FRA.3 During this time period, 10,069 of 31,403 train accidents, or
32 percent, were caused by track defects. 4 These accidents can have long-term
consequences, including injuries, deaths, and evacuations. For example, from 1998
through 2007, on average, 155 people were injured, 1 person was killed, and
1,310 people were evacuated each year, as a result of track-caused train accidents.

Safety on the Nation’s freight rail lines is first and foremost the responsibility of
individual railroads, which must comply with Federal safety regulations. Among
other things, these regulations establish minimum safety requirements for railroad
track, including how it is constructed, maintained, and inspected. To identify
noncompliance with Federal rail safety regulations, FRA conducts periodic visual
and automated inspections of the railroads’ track and reviews the railroads’ track
inspection records. In addition, it issues regulations aimed at improving rail safety,
investigates train accidents, analyzes data regarding train accidents and inspections
conducted by its inspectors, responds to complaints, funds research for new
technology, and sponsors training seminars for railroad employees on how to
comply with Federal regulations.


RESULTS IN BRIEF
During this audit, we evaluated FRA’s oversight of track safety on the Nation’s
freight rail lines. We found that FRA has taken steps to improve its track safety
oversight program by expanding inspection activities and implementing new
initiatives. FRA’s oversight activities were conducting visual and automated
inspections of the railroads’ track to identify instances of noncompliance with its
safety regulations. FRA also reviewed the railroads’ track inspection records to
assess compliance with Federal safety regulations. Since 2005, as part of its

3
    The leading cause of train accidents was attributed to human factors, such as train crews improperly positioning
    switches and failing to secure a sufficient number of handbrakes. From 1998 through 2007, 11,116 of 31,403 train
    accidents, or 35 percent, were caused by human factors.
4
    Over the same 10-year period, the rate of track-caused train accidents decreased from 1.32 per million train miles
    traveled to 1.15 per million train miles traveled, or 13 percent, as the number of train miles traveled increased.
                                                                                                                         3


National Rail Safety Action Plan—which targeted the most frequent, highest-risk
causes of train accidents—FRA has implemented several initiatives to improve its
oversight of track safety on the Nation’s rail lines. In April 2007, for example, FRA
enhanced its Automated Track Inspection Program by adding two new geometry
inspection vehicles, to expand its inspection capacity to nearly 100,000 track-miles
per year.

We assessed whether FRA identified track defects that may affect safety and
whether it took appropriate actions to enforce its track safety regulations. Our
analysis of FRA’s track inspection data, reported from 2004 through 2007, found
that its inspectors had conducted 62,529 inspections, identified 410,441 defects, and
recommended 6,629 of these defects for violations. Moreover, our analysis of a
random sample of the railroads’ track inspection reports found that the four Class I
railroads we evaluated were visually inspecting their tracks as required by FRA’s
safety regulations. However, we identified two areas where FRA can do more to
enhance its oversight of the railroads’ track safety inspections.

Specifically, we found that:

• FRA’s safety regulations for internal rail flaw testing did not require the
  railroads to report the specific track locations—milepost numbers or track
  miles—tested during these types of inspections. Internal rail flaw testing (also
  known as ultrasonic 5 and induction 6 testing) is used to detect cracks and other
  weaknesses inside the rail that can not be found during visual track inspections.
  These internal rail flaws can lead to broken rail, which causes train accidents.
  From 2004 through 2007, 1,138 of the 4,103 (28 percent) track-caused train
  accidents reported by the railroads were attributed to broken rail. To address this
  safety problem, FRA’s regulations require the railroads to conduct ultrasonic or
  induction testing on their tracks—a continuous search for internal defects—to
  detect internal cracks and weaknesses inside their rails 7 and document the date,
  location, and nature of internal rail defects and date and type of remedial actions
  taken. 8

      However, we found that FRA’s safety regulations do not require the railroads to
      report the specific track locations covered during internal rail flaw testing. FRA
5
    Ultrasonic testing is designed to detect flaws in the rail head and web area.
6
    Induction testing is designed to detect flaws only in the rail head.
7
    49 C.F.R., Part 213.237 specifies that this requirement is applicable to all railroads operating on track classified as
    Class 4 through Class 5, and Class 3 track with passenger train operations. The required frequency of testing for these
    classes of track is once every 40 million gross tons of traffic or once each year, whichever interval is shorter. For
    Class 3 track without passenger train operations, internal rail flaw testing should be conducted at least once every
    30 million gross tons or once a year, whichever interval is longer.
8
    49 C.F.R., Part 213.241 requires that rail inspection records shall specify the date of inspection, the location and nature
    of any internal defects found, the remedial action taken and date thereof, and the location of any intervals of track not
    tested due to rail surface conditions.
                                                                                    4


   track inspectors told us that without knowing the specific track locations that
   underwent internal rail flaw testing, they could not determine whether the
   railroads had conducted a continuous search for internal rail flaws. In
   February 2007 and again in September 2008, FRA tasked its Railroad Safety
   Advisory Committee (RSAC) to revise and strengthen the safety regulations for
   internal rail flaw testing. As of the date of this report, the work is still ongoing.
   Because the success of FRA’s oversight of internal rail flaw testing depends on
   the railroads’ inspection results, including the specific track locations tested,
   FRA needs to include in its revision of its safety regulations a requirement that
   the railroads report all track locations (milepost numbers or track miles) tested
   during internal rail flaw testing.

• FRA’s inspection data system does not provide adequate information for
  determining the extent to which FRA’s track inspectors have reviewed the
  railroads’ records for internal rail flaw testing and visual track inspections
  to assess compliance with safety regulations. To identify track safety
  problems, FRA’s track inspectors are required to review the railroads’ records for
  internal rail flaw tests and visual track inspections. We analyzed the inspection
  data that FRA’s track inspectors reported from 2004 through 2007 and found that
  the data did not indicate whether the records FRA reviewed related to internal
  rail flaw testing or visual track inspections. This reporting weakness was caused
  by the limited availability of activity codes in FRA’s inspection data system,
  which did not allow FRA’s track inspectors to separately report on their reviews
  of the railroads’ records for internal rail flaw testing and visual track inspections.
  Instead, FRA’s track inspectors reported the results of both of these reviews of
  railroads’ inspection records under the same code in FRA’s inspection data
  system.

   FRA’s track inspector’s reviews are intended to determine that the railroads have
   complied with safety regulations for conducting internal rail flaw testing and
   visual track inspections, and identifying track safety problems. To address the
   reporting weakness, we recommended that FRA improve its track safety
   oversight by revising its Track Safety Compliance Manual and inspection data
   system, to include specific activity codes for FRA’s track inspectors to report on
   the extent to which they assessed the railroads’ compliance with safety
   regulations for conducting internal rail flaw testing and visual track inspections.
   In response to a draft of this report, FRA took prompt corrective actions and
   implemented this recommendation on February 11, 2009. A complete list of our
   recommendations and FRA’s response begins on page 8.
                                                                                                                       5


FINDINGS

FRA Has Taken Steps To Improve Its Track Safety Program By
Expanding Inspection Activities and Implementing New Initiatives, But
It Can Do More To Enhance Its Oversight of Track Inspections
Since 2005, FRA has implemented several initiatives intended to improve its
oversight of track safety on the Nation’s rail lines. In May 2005, FRA launched its
National Rail Safety Action Plan to target the most frequent, highest risk causes of
train accidents. In March 2006, FRA implemented its National Inspection Plan—a
strategic inspection resource allocation program that uses predictive indicators 9 to
assist FRA in conducting inspection and enforcement activities within a given
geographic area or on a particular railroad. In April 2007, FRA enhanced its
Automated Track Inspection Program by adding two new geometry inspection
vehicles. 10 This action expanded its inspection capacity to nearly 100,000 track-
miles per year. Because these initiatives had not been fully implemented for a
sufficient period of time before our audit, we could not assess their overall impact on
track safety.

Routinely, FRA’s 83 track inspectors oversee safety on the Nation’s freight rail lines
by: (1) conducting visual inspections and reviewing inspection records to determine
whether the railroads have complied with FRA’s regulations for conducting visual
and ultrasonic or induction track inspections,11 (2) identifying and reporting track
defects, and (3) recommending violations to the Office of Chief Counsel, which can
result in assessing fines and penalties against railroads. We analyzed FRA’s track
inspection data as reported from 2004 through 2007, and found that FRA’s
inspectors had conducted 62,529 inspections, identified 410,441 defects, and
recommended 6,629 of those defects for violations. Moreover, our analysis of a
random sample of the railroads’ track inspection reports found that the four Class I
railroads we evaluated were visually inspecting their tracks as required by FRA’s
safety regulations.

In addition to conducting visual track inspections, FRA’s safety regulations require
the railroads to conduct a continuous search for internal defects on their tracks using
ultrasonic or induction testing equipment. This equipment detects internal cracks
and weaknesses inside their rails that can not be found during visual track
inspections. Figure 1 illustrates a common internal rail defect called a transverse
fissure. A transverse fissure is a progressive fracture from the center of the rail head

9
     FRA uses data on track miles, accidents/incidents, inspections, and defects as predictive indicators for planning track
     inspections.
10
     A track geometry inspection vehicle measures various rail parameters, including the width between the rails (gage) and
     the distance one rail is above or below another (crosslevel), among other things.
11
     Track Safety Standards, Part 213.233 and Part 213.237, 49 C.F.R.
                                                                                  6


that spreads outward and is usually a round or oval spot within the rail head.
Without the railroads conducting ultrasonic or induction testing on their tracks, such
defects would not be detected and could ultimately lead to broken rail and increase
the potential for train derailments. From 2004 through 2007, 1,138 of the 4,103
(28 percent) track-caused train accidents reported by the railroads were attributed to
broken rail.

             Figure 1: Internal Rail Defect in the Rail Head




              Transverse Fissure




              Source: FRA

Although FRA has improved its Track Safety Program, it can do more to enhance its
oversight of the railroads’ tests for internal rail flaws. We found that FRA’s safety
regulations for internal rail flaw testing do not require the railroads to report the
specific track locations—milepost numbers or track miles—tested during these types
of inspections. In contrast, FRA’s safety regulations require the railroads to report
specific track locations on the results of their visual track inspections. Without
knowing the milepost numbers or track miles tested, FRA track inspectors could not
determine whether the railroads had conducted a continuous search for internal rail
flaws.

Without information on the specific track locations tested, FRA can not assess the
adequacy of the railroads’ internal rail flaw testing programs. FRA was aware of
this regulatory reporting problem and tasked its RSAC to address it, and other
related safety issues, in February 2007 and again in September 2008. At the time of
this report, the work was still ongoing. Because the success of FRA’s oversight of
internal rail flaw testing depends on the railroads’ inspection results, including the
                                                                                                                      7


specific track locations tested, FRA needs to include in its revision of its safety
regulations a requirement that the railroads report all track locations (milepost
numbers or track miles) tested during internal rail flaw testing.

We also found that FRA’s inspection data system does not provide adequate
information for determining the extent to which FRA’s track inspectors have
reviewed the railroads’ records for internal rail flaw testing and visual track
inspections to assess compliance with safety regulations. To comply with FRA’s
regulations for internal rail flaw testing, the railroads use ultrasonic and induction
rail testing equipment that is mounted under a hy-rail vehicle, as shown in figure 2.12
To determine that the railroads are conducting the required internal rail flaw testing,
FRA inspectors review the railroads’ records for internal rail flaw testing and
document their reviews in FRA’s inspection data system.

          Figure 2: Ultrasonic Internal Rail Flaw Testing Equipment
                         Mounted to a Hy-Rail Vehicle




                                                         Internal Rail Flaw Testing Equipment

                Source: FRA

We analyzed the inspection data that FRA’s track inspectors reported from 2004
through 2007 and found that the data did not indicate whether the records FRA
reviewed related to internal rail flaw testing or visual track inspections. This
reporting weakness occurred because FRA’s track inspectors documented the results

12
     Hy-rail vehicles are highway vehicles with retractable steel rail wheels that allow movements on a railroad track or a
     roadway.
                                                                                    8


of their reviews of internal rail flaw testing and visual track inspections records
under the same inspection activity code in FRA’s inspection data system, rather than
under separate activity codes. Separate activity codes are essential for providing
FRA’s senior safety officials with key information to verify that their track
inspectors properly performed the required record reviews. The FRA should
improve its track safety oversight by revising its Track Safety Compliance Manual
and inspection data system to include specific activity codes for FRA’s track
inspectors to report on whether the record reviews the inspectors conducted were
for internal rail flaw testing or visual track inspections. This change will allow
FRA’s senior safety officials to assess the extent to which inspectors determined that
the railroads have complied with the relevant safety regulations.

RECOMMENDATIONS
We recommend that FRA:

1. Revise its track safety regulations for internal rail flaw testing to require the
   railroads to report all track locations (milepost numbers or track miles) covered
   during internal rail flaw testing.

2. Revise its Track Safety Compliance Manual and inspection data system by
   including specific inspection activity codes for its track inspectors to report on
   whether the record reviews the inspectors conducted were for internal rail flaw
   testing or visual track inspections.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FRA a draft of this report on January 21, 2009. On February 5, 2009,
FRA provided us with its formal comments (see appendix); and on
February 10, 2009, it provided additional information during a teleconference to
clarify its original comments and establish target completion dates. FRA concurred
with our audit results and recommendations, and agreed to take corrective actions.
We agree with the following FRA planned corrective actions.

Recommendation 1: FRA concurred with our recommendation to revise its track
safety regulations to require the railroads to report all track locations covered during
internal rail flaw testing. FRA’s Office of Railroad Safety agreed that it is vital to
require the railroads to maintain records to which FRA has access on demand during
its oversight on the railroads’ property. FRA plans to continue working with its
Railroad Safety Advisory Committee’s Rail Integrity Task Force to make changes to
FRA’s mandated reporting requirements and to address many areas of internal rail
                                                                                   9


flaw detection. FRA further stated that its time frame for changing the regulation is
uncertain.

OIG Response: We consider FRA’s proposed actions and planned completion date
responsive to this recommendation. We agree that the ongoing work being
conducted by the Rail Integrity Task Force to address many internal rail flaw
detection issues is vital, particularly FRA-mandated reporting. FRA’s February 5
formal comments did not provide a date for revising its safety regulations to require
the railroads to report all track locations (milepost numbers or track miles) covered
during internal rail flaw testing. However, on February 10, 2009, FRA senior track
safety officials informed us that the target completion date for fully implementing
our recommendation is December 2010.

Recommendation 2: FRA concurred with our recommendation to revise its Track
Safety Compliance Manual and inspection data system by including specific
inspection activity codes for its track inspectors to report on whether the record
reviews they conducted were for internal rail flaw testing or visual track inspections.
FRA agreed that including another inspection activity code for internal rail flaw
testing would be helpful in tracking the number of rail inspection reports FRA
inspects. On February 11, 2009, FRA issued a Technical Bulletin (Track-09-01) that
established a new activity code for tracking the rail inspection reports reviewed by
its track inspectors. FRA’s bulletin also provided instructions to its track inspectors
and specialists on how and when to use the new activity code. By February 2010,
FRA plans to revise its Track Safety Compliance Manual to include this new activity
code, among other things.

OIG Response: We consider the actions that FRA has taken responsive to this
recommendation. FRA’s new track inspection activity codes should significantly
improve the Agency’s ability to track its review of the railroads’ internal rail flaw
testing reports.

We consider FRA’s actions taken and planned to be responsive to our
recommendations.       In accordance with Department of Transportation
Order 8000.1C, we consider each recommendation resolved, but recommendation 1
will remain open pending the completion of FRA’s planned actions. Further, we
consider FRA’s prompt actions to implement recommendation 2 appropriate and we
have closed this recommendation.

We appreciate the courtesies and cooperation of FRA representatives during this
audit. If you have any questions concerning this report, please call me at (202) 366-
1981 or Brenda R. James, Program Director, at (202) 366-0202.
                                                                                 10




EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of this audit was to evaluate FRA’s oversight of track safety on the
Nation’s freight rail lines. To determine whether FRA identifies track defects that
may affect safety and takes appropriate actions to improve railroad operations, we
reviewed Federal laws and regulations, FRA policies and procedures, and other
relevant information to develop an understanding of Federal track safety
inspection requirements. We contacted FRA officials in Washington, D.C., and
four FRA regional offices located in Georgia, Pennsylvania, Missouri, and Texas.
We visited four Class I railroads—Burlington Northern Santa Fe Railway
Company (BNSF) in Fort Worth, Texas; CSX Transportation (CSX) in
Jacksonville, Florida; Norfolk Southern Corporation (NS) in Atlanta, Georgia; and
Union Pacific Railroad Company (UP) in Omaha, Nebraska. These four railroads
experienced the highest number of track-caused accidents from 2005 through
2007. We also contacted representatives from one non-Class I railroad—Florida
East Coast Railway—in Jacksonville, Florida; the American Short Line and
Regional Railroad Association; and the Brotherhood of Maintenance-of-Way
Employees in Washington, D.C.

To identify trends in track-caused train accidents, we obtained the railroads’ train
accident reports that were submitted to FRA from 1998 through 2007. We
analyzed these reports to identify the number of track-caused train accidents
reported each year. We also analyzed these track-caused train accidents by
railroad. For the track-caused train accidents that FRA investigated from 2005
through 2007, we reviewed the investigation reports and compared them with the
railroads’ accident report to ensure the information the railroads had submitted
agreed with FRA’s investigation reports.

To assess FRA’s track inspection procedures, we interviewed officials from
FRA’s Office of Safety Assurance and Compliance to obtain information on their
roles and responsibilities for promoting rail safety and enforcing its track safety
regulations. We obtained a detailed overview of FRA’s National Inspection Plan
and its impact on planning track inspections. We also accompanied FRA track
inspectors in four regions on visual track inspections to determine how they
conducted and documented these inspections. We analyzed FRA’s track
inspection records, from 2004 through 2007, to identify the number of track
inspections conducted, number of defects identified, and number of defects
recommended for violation.

To evaluate the railroads’ compliance with track inspection regulations, we
interviewed officials at four Class I railroads to obtain information on their track
infrastructure and track inspection policies and procedures. During these site


Exhibit A. Objective, Scope, and Methodology
                                                                               11


visits, we requested a listing of mainline track segments owned by the four
railroads. We worked with the OIG’s senior statistician to generate a random
sample of 71 railroad track segments owned by the four major Class I railroads.
The milepost sample was selected from a 26-week inspection period of July
through December 2007. We obtained and analyzed the visual track inspection
reports identified in our random sample from each of the four Class I railroads to
assess the railroads’ compliance with Federal track safety standards, including
required inspection frequency, method of inspection performed, results of the
inspections and whether corrective actions were provided, and whether any
required data were missing.

We conducted this performance audit from November 2007 through
November 2008, in accordance with generally accepted Government Auditing
Standards prescribed by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.




Exhibit A. Objective, Scope, and Methodology
                                                                            12




EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

Federal Railroad Administration
Office of the Associate Administrator for Safety, Washington, D.C.
Office of the Associate Administrator for Railroad Development, Washington, D.C.
Region 2, Philadelphia, Pennsylvania
Region 3, Atlanta, Georgia
Region 5, Fort Worth, Texas
Region 6, Kansas City, Missouri

Railroads
Burlington Northern Santa Fe Railway Company, Fort Worth, Texas
CSX Transportation, Jacksonville, Florida
Florida East Coast Railway, Jacksonville, Florida
Norfolk Southern Corporation, Atlanta, Georgia
Union Pacific Railroad Company, Omaha, Nebraska

Other
American Short Line and Regional Railroad Association, Washington, D.C.
Brotherhood of Maintenance-of-Way Employees, Washington, D.C.




Exhibit B. Activities Visited or Contacted
                                                             13




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

  Name                                 Title

  Brenda R. James                      Program Director

  Wendy M. Harris                      Project Manager

  Donald J. Lango                      Senior Auditor

  Aaron M. Schwarz                     Analyst

  Petra Swartzlander                   Senior Statistician

  Thomas E. Lehrich                    Chief Counsel

  Harriet E. Lambert                   Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                            14




APPENDIX. MANAGEMENT COMMENTS




This memo is in response to the draft report the Office of Inspector General (OIG) issued to
the Federal Railroad Administration (FRA) on January 21, 2009, concerning the results of
the OIG’s audit of FRA’s oversight of track-related safety issues.

   1. OIG recommended that FRA revise its track safety regulations for internal rail
      flaw testing to require the railroads to report all track locations (milepost
      numbers or track miles) covered during internal rail flaw testing.

       FRA’s Railroad Safety Advisory Committee (RSAC) has an active Rail Integrity
       Task Force. FRA is deliberating with the National Transportation Safety Board, rail
       carriers, organized labor, and railroad contractors to determine the best way to
       address many areas of internal rail flaw detection. One of the areas the Task Force is
       looking into is the FRA-mandated reporting process. FRA’s Office of Railroad
       Safety agrees that it is vital to require railroads to maintain records to which FRA has
       access on demand during our oversight on the property. That process should be
       added through the RSAC process. The RSAC process is ongoing and the timeframe
       for changing the regulation is uncertain.

   2. OIG also recommended that FRA revise its Track Safety Compliance Manual
      and inspection data system by including specific inspection activity codes for its
      track inspectors to report on whether the record reviews the inspectors
      conducted were for internal rail flaw testing or visual track inspections.
   Appendix. Management Comments
                                                                                      15



   FRA agrees that including another inspection activity code for track inspections
   would be helpful in tracking the number of rail inspection reports FRA inspects.
   With the addition of the Rail Integrity Group within the Office of Railroad Safety,
   FRA has already added two more activity codes to be used specifically by that group.
   The Rail Integrity Group is now using codes for inspecting flaw detection processes
   and auditing inspection vehicles.

   FRA expects to issue a new activity code for rail inspection records by February 19,
   2009. The Office of Railroad Safety will then issue a memo to the track inspectors
   and specialists with instructions on how and when to use the code and when the
   compliance manual is revised later this year, after the Continuous Welded Rail
   regulation is finalized.

Thank you for the opportunity to respond to OIG’s recommendations for FRA’s
oversight of track-related safety issues.




Appendix. Management Comments
